                      National Archives and Records Administration
                                                                                            8601 Adelphi Road
                                                                           College Park, Maryland 20740-6001


Date       September 20, 2007
Reply to
Attn of    Office ofInspector General (OIG)

Subject    Management Letter #07-12, Contingency Planning for Information Technology Systems

To         Allen Weinstein, Archivist (N)

       The purpose ofthis memorandum is to formally bring to your attention conditions that could impact
       NARA's ability to recover information technology (IT) systems that are essential to the agency's
       mission in the event of a disaster or emergency situation.

       Public Law 107-347, "The Federal Information Security Management Act (FISMA)," requires all
       Federal agencies to develop, document, and implement an information security program that
       includes plans and procedures to ensure continuity of operations for information systems that
       support the operations and assets of the agency.

       Previous OIG Report No. 06-09, "Review ofNARA's Information Security Program," July 31,
       2006, identified IT contingency planning and disaster recovery as inadequate to support NARA's
       critical systems and recommendations were made to strengthen the contingency plans.
       Unfortunately, the recommended corrective measures were not adopted and contingency plans were
       not revised. During the ongoing audit ofNARA's compliance with the FISMA, we reviewed the
       individual contingency plans developed for each information system and interviewed the Chief
       Information Officer (CIO) and ChiefInformation Security Officer (CISO) regarding those plans.

       We identified a significant risk to agency operations because adequate plans do not exist and
       coordination among NARA Senior Managers has not been established to ensure IT systems critical
       to NARA's mission can be recovered quickly and effectively following a service disruption or
       disaster. Specifically, NARA Senior Management identified several systems in the NARA
       Continuity of Operations Plan (COOP) as essential to their operations in the event of a regional or
       national emergency. According to the CIO, she lacks the organizational posture and baseline
       resources necessary to ensure that "critical" or "essential" systems will be available in the event of a
       regional or national emergency.




                                     National Archives and Records Administration
We bring this to your attention because the CIO has defined a lack of organizational authority and
capacity to establish policy for ensuring that business owner's have established COOPs to ensure
agency operations can continue in the event IT systems are not available for long periods of time.
We believe it to be imperative that this issue be resolved promptly in order for NARA to develop,
document, and implement plans that minimize the agency's risk and afford NARA the opportunity to
recover critical IT services following an emergency. This issue will be further addressed in the
forthcoming FISMA audit report.

We suggest that you begin discussions with pertinent senior managers to clarify appropriate roles
and responsibilities. We look forward to your response as to how you plan to address this condition.
Should you have any questions, please contact me on (301) 837-1532.




Paul Brachfeld
Inspector General




                             National Archives and Records Administration
